No. 19-1304

 

 

In THE

Supreme Court of the Anited States

INDIAN RIVER COUNTY, FLORIDA, ET AL.,

Petitioners,
v.

DEPARTMENT OF TRANSPORTATION, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia Circuit

BRIEF FOR AMICUS CURIAE
AMERICANS FOR PROSPERITY FOUNDATION
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,727 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 17, 2020.

(i,
Colin Cased tosan

Wilson-Epes Printing Co., Inc.
